OFFICE OF INSPECTOR GENERAL


FOLLOW-UP AUDIT OF
USAID/COLOMBIA’S HUMAN
RIGHTS PROGRAM
AUDIT REPORT NO. 1-514-11-008-P
AUGUST 29, 2011




SAN SALVADOR, EL SALVADOR 

Office of Inspector General


August 29, 2011

MEMORANDUM

TO:            USAID/Colombia Acting Mission Director, Nadereh Lee

FROM:          Regional Inspector General/San Salvador, Catherine Trujillo /s/

SUBJECT:       Follow-Up Audit of USAID/Colombia’s Human Rights Program
               (Report Number 1-514-11-008-P)

This memorandum transmits our report on the subject audit. In finalizing the report, we carefully
considered your comments on the draft and have included the comments in Appendix II.

The report includes one recommendation. Based on actions taken by the mission, we
determined that a management decision has been reached on Recommendation 1. Please
provide the Audit Performance and Compliance Division in the USAID Office of the Chief
Financial Officer with the necessary documentation to achieve final action.

I appreciate the cooperation and courtesy extended to my staff during the audit.




U.S. Agency for International Development
Embajada Americana
Urb. y Blvd Santa Elena
Antiguo Cuscatlan, Depto. La Libertad
San Salvador, El Salvador
Tel. (503) 2501-2999—Fax (503) 2228-5459
www.usaid.gov/oig
CONTENTS
Summary of Results ................................................................................................... 1 


Audit Findings............................................................................................................. 3 


Evaluation of Management Comments..................................................................... 7 


Appendix I – Scope and Methodology ...................................................................... 8 


Appendix II – Management Comments ..................................................................... 9 




Abbreviations

The following abbreviations appear in this report:

EWS               Early Warning System
MSD               Management Sciences for Development, Inc.
RIG               Regional Inspector General
TraiNet           Training Results and Information Network
SUMMARY OF RESULTS

USAID/Colombia’s Human Rights Program is the largest such USAID initiative in the world. The
program is implemented by Management Sciences for Development, Inc. (MSD), under a $38.8
million contract that began in 2006. One of the program’s main activities is strengthening the
Early Warning System (EWS) used by the Office of the National Ombudsman1 to prevent
human rights abuses.

EWS relies on a network of analysts. Analysts throughout the country prepare EWS risk reports,
which detail potential human rights abuses and undergo several levels of review. When a regional
analyst determines that a human rights abuse is likely to occur, he or she forwards a risk report to a
national analyst in Bogota. The national analyst, in turn, reviews the report and may ask questions
about it or forward it to the EWS director, who may then send it to the Office of the National
Ombudsman.

The Political Constitution of 1991 placed EWS in the Office of the National Ombudsman to provide
independence from the armed forces and the rest of the Government of Colombia. The importance
of independence is evidenced by the contract with MSD, which refers to strengthening the
independent oversight capacity and accountability of public sector entities.

However, in 2002, the Office of the National Ombudsman stopped issuing warnings independently
and began to issue risk reports addressed to an ad hoc committee, the Inter-Institutional
Committee for Early Warnings. This committee is composed of representatives from the Ministry
of Interior and Justice, the Ministry of Defense, the Administrative Department of the Presidency, the
Presidential Agency for Social Action (Acción Social), the Military Forces, and the National Police.
The stated purpose of the committee is to improve coordination with elements of the government
that need to take action in response to warnings of potential human rights abuses

During fiscal year 2009, the Regional Inspector General/San Salvador (RIG/San Salvador)
audited USAID/Colombia’s human rights program (Report No. 1-514-09-007-P). As part of the
fiscal year 2011 audit plan, RIG/San Salvador performed this follow-up audit to determine
whether the actions taken by USAID/Colombia in response to the recommendations in the
previous audit report were effective. We recommended that USAID/Colombia:

1. 	 In coordination with its implementing partner and the Government of Colombia, augment the
     membership of the Inter-Institutional Committee for Early Warnings to include members from
     the independent oversight and control branch of the Colombia State, such as the National
     Ombudsman and the Inspector General, and charge them with oversight of the committee’s
     operations.

2. 	 In coordination with its implementing partner and the National Ombudsman, ensure that the
     Early Warning System makes risk reports available to the public on a timely basis by posting
     them on the Internet and/or publishing them while keeping reasonable confidentiality and
     security needs in mind.

3. 	 In coordination with its implementing partner, the Government of Colombia, and the National

1
 The Office of the National Ombudsman is the institution in the Government of Colombia responsible for
promoting human rights under the rule of law (http://www.defensoria.org.co).


                                                                                                   1
   Ombudsman, implement procedures for more timely and effective two-way communication
   between the Inter-Institutional Committee for Early Warnings and the Early Warning System.

4. 	 In coordination with its implementing partner and the National Ombudsman, ensure that the
     Early Warning System establishes internal timelines for preparing and forwarding risk
     reports.

5. 	 Exercise its influence with the Government of Colombia and civil society organizations to
     encourage them to resume work on the National Action Plan for human rights within the
     framework of the Coordination Level, while discouraging initiatives to narrow participation in
     the National Action Plan for human rights process.

6. 	 In coordination with its implementing partner, reprogram the $396,943 for the activities of the
     assistance program for at-risk communities to other efforts that will produce more significant
     results.

7. 	 Develop a performance management plan for the human rights program.

8. 	 In conjunction with its implementing partner, develop and implement a system to reasonably
     ensure that reported information is accurate.

9. 	 Provide limited access to the Agency’s Training Results and Information Network (TraiNet)
     to contractors who report on training so that the initial data entry can be done by them
     before being reviewed by the appropriate USAID/Colombia staff.

USAID/Colombia’s actions were effective in response to eight of the nine recommendations in
the previous audit report and partially effective in response to the other one. It is our opinion
that the actions taken have indeed increased the independence of EWS.

This audit repeats Recommendation 4, on which actions were only partially effective.            We
recommend that USAID/Colombia:

	 In coordination with its implementing partner and the Office of the National Ombudsman,
   establish timelines in the Early Warning System for preparing and forwarding risk reports
   (page 4).

Detailed findings follow. Our evaluation of management comments is on page 7. Appendix I
presents the audit scope and methodology, and the full text of management comments is in
Appendix II.




                                                                                                  2
AUDIT FINDINGS 

The following paragraphs discuss the recommendations made in the original report, the
mission’s actions on those recommendations, and the audit team’s conclusions concerning the
effectiveness of the mission’s actions.

Original Recommendation 1. We recommended that USAID/Colombia, in coordination with its
implementing partner and the Government of Colombia, augment the membership of the Inter-
Institutional Committee for Early Warnings to include members from the independent oversight
and control branch of the Colombian State, such as the National Ombudsman and the Inspector
General, and charge them with oversight of the committee’s operations.

In response to the recommendation, USAID/Colombia, MSD, and the Colombian Government
were able to augment the membership of the Inter-Institutional Committee for Early Warnings.
This change was formalized with Presidential Decree 2780 on August 3, 2010. The decree
made both the Office of the National Ombudsman (the Early Warning System is in the Office of
the National Ombudsman) and the Inspector General permanent invitees to the committee
meetings. Both have a voice but not a vote as was intended by the recommendation. The audit
team confirmed—by reviewing sign-in sheets and interviewing seven EWS officials in three
cities—that the National Ombudsman has always been invited to and has always attended the
committee meetings. The audit team also confirmed that EWS staff members are able to speak
at committee meetings to clarify the risk reports.

However, although formally invited, the Inspector General of Colombia2 does not attend. Even
though the Inspector General and the National Ombudsman are meant to be present only
during the discussion and not during the voting, the Inspector General is concerned that by
attending the meetings, the Inspector General might be seen as approving the decisions, and
the independence of the office might appear to be diminished.

Even without attending, the Inspector General has the ability and the power to request
information from the committee on a particular risk report and the subsequent response in the
regions affected. Officials from the Inspector General’s Office stated that they had attended two
committee meetings when a risk report of particular interest was discussed. This, in essence,
meets the requirement for providing oversight of the committee. Given that the official decree
has formalized the inclusion of both the National Ombudsman and the Inspector General at the
meetings of the committee, the recommendation has been implemented. We conclude that the
mission’s actions to implement the recommendation were effective.

Original Recommendation 2. We recommended that USAID/Colombia, in coordination with its
implementing partner and the National Ombudsman, ensure that the Early Warning System
makes risk reports available to the public on a timely basis by posting them on the Internet
and/or publishing them while keeping reasonable confidentiality and security needs in mind.

With USAID/Colombia’s support, the Office of the National Ombudsman and EWS have made
some risk reports public through press releases in the past 3 years, but not all of them.


2
  The Inspector General’s Office of Colombia is an independent, public institution monitoring the actions
of public officials entrusted by the constitution and the law (www.procuraduria.gov.co).


                                                                                                       3
According to EWS, the number of risk reports made public in the past 3 years is shown in the
table below:

                                   Risk Reports Made Public
                                     Risk Reports        Risk Reports       Percentage Made
                Year
                                      Produced           Made Public             Public
     2009                                 66                  27                   41

     2010                                 51                  32                   63

     2011 (through May 5)                 19                  14                   74

The reason given for not systematically making risk reports available to the public is the risk of
reprisal to which communities and EWS analysts might be subjected.                     Because the
recommendation did acknowledge that making risk reports public had to take into account
reasonable confidentiality and security needs, the percentages in the table are understandable.
Yet it would be preferable to make all risk report abstracts public and to restrict dissemination of
the full reports when security or confidentiality concerns dictate. Overall, we conclude that the
mission’s actions to implement the recommendation were effective.

Original Recommendation 3. We recommended that USAID/Colombia, in coordination with its
implementing partner, the Government of Colombia, and the National Ombudsman, implement
procedures for more timely and effective two-way communication between the Inter-Institutional
Committee for Early Warnings and the Early Warning System.

Based on discussions with officials from the committee, EWS, USAID, the State Department,
and implementing partners, two-way communication between the committee and EWS has
improved considerably. The two do not always agree, but communication is more timely and
effective. This improvement is largely the result of Presidential Decree 2780, which the
Colombian Government, USAID/Colombia, and MSD worked on and which formalizes the
permanent membership of the Office of the National Ombudsman and EWS at the committee
meetings. In addition, the committee has consistently informed EWS officials of upcoming
meetings. We conclude that the mission’s actions to implement the recommendation were
effective.

Original Recommendation 4. We recommended that USAID/Colombia, in coordination with its
implementing partner and the National Ombudsman, ensure that the Early Warning System
establishes internal timelines for preparing and forwarding risk reports.

After the original audit report was issued, the mission began working with EWS officials to
establish internal timelines for preparing and forwarding risk reports. However, EWS officials
explained that they first had to define certain deliverables they produced before establishing
related timelines. USAID helped with this by providing a consultant, and a draft of timelines has
been produced. This draft was cleared for approval at a meeting in December 2010 of all EWS
analysts to ensure buy-in. The audit team reviewed this draft and determined that it indeed
includes timelines. Although the draft has been prepared, it had not been approved and
implemented as of June 2011. Therefore, the mission’s actions have been partially effective
and not yet fully implemented. For that reason, we make the following recommendation.

   Recommendation 1. We recommend that USAID/Colombia, in coordination with its
   implementing partner and the Office of the National Ombudsman, establish timelines in
   the Early Warning System for preparing and forwarding risk reports.



                                                                                                  4
Original Recommendation 5. We recommended that USAID/Colombia exercise its influence
with the Government of Colombia and civil society organizations to encourage them to resume
work on the National Action Plan3 for human rights within the framework of the Coordination
Level, while discouraging initiatives to narrow participation in the National Action Plan for human
rights process.

The mission has made efforts to implement this recommendation. However, the government
wished to engage with civil society on human rights through a mechanism other than the
National Action Plan. This audit confirmed and a State Department report indicates that the
government has expressed support for human rights defenders and engaged them in dialogue.
We conclude that the mission’s actions to implement the recommendation were effective.

Original Recommendation 6. We recommended that USAID/Colombia, in coordination with its
implementing partner, reprogram the $396,943 for the activities of the assistance program for
at-risk communities to other efforts that will produce more significant results.

After some outstanding invoices came in, the mission and MSD ceased to expend funds for the
Communities at Risk Program. Payment of the outstanding invoices reduced the amount
available to be reprogrammed to $278,911. The mission completed the reprogramming through
a modification on June 2011; therefore, we conclude that the mission’s actions to implement the
recommendation were effective.

Original Recommendation 7. We recommended that USAID/Colombia develop a performance
management plan for the human rights program.

The mission agreed with the recommendation and developed and approved a performance
management plan with indicators and targets as appropriate. The audit team reviewed the plan
and found it to be in accordance with requirements. We conclude that the mission’s actions to
implement the recommendation were effective.

Original Recommendation 8. We recommended that USAID/Colombia, in conjunction with its
implementing partner, develop and implement a system to reasonably ensure that reported
information is accurate.

The mission agreed with the recommendation and implemented a system of spot checks. As
the implementing partner provided quarterly reports showing results, USAID/Colombia’s Human
Rights Office staff made random selections and requested supporting documentation.
Subsequently staff reviewed the supporting documentation and prepared memos describing the
work done. The memos also provide recommendations to the implementing partner in certain
cases. We conclude that the mission’s actions to implement the recommendation were
effective.

Original Recommendation 9. We recommended that USAID/Colombia provide limited access
to the Agency’s Training Results and Information Network (TraiNet) to contractors who report on
training so that the initial data entry can be done by them before being reviewed by the
appropriate USAID/Colombia staff.


3
  The Government of Colombia signed an international agreement in 1993 in Vienna, Austria pledging to
develop a National Action Plan for human rights. The government began developing its plan, which was
to be discussed with civil society organizations, through the USAID Human Rights Program.


                                                                                                   5
The mission agreed with the recommendation and has provided limited access to MSD. The
audit team observed that MSD had access and confirmed MSD’s use of the network through
observation and discussion. The audit team also reviewed documentation showing that
USAID/Colombia had verified the TraiNet information entered by MSD. We conclude that the
mission’s actions to implement the recommendation were effective.




                                                                                      6
EVALUATION OF MANAGEMENT
COMMENTS
After evaluating USAID/Colombia’s comments on our draft report, RIG/San Salvador
determined that a management decision has been reached on Recommendation 1, that
USAID/Colombia, in coordination with its implementing partner and the Office of the National
Ombudsman, establish timelines in the Early Warning System for preparing and forwarding risk
reports. The mission’s plan, assuming the Government of Colombia’s full implementation, is to
complete planned activities by July 14, 2012.




                                                                                           7
                                                                                       Appendix I



SCOPE AND METHODOLOGY
Scope
The Regional Inspector General/San Salvador conducted this performance audit in accordance
with generally accepted government auditing standards.4 Those standards require that we plan
and perform the audit to obtain sufficient, appropriate evidence to provide a reasonable basis for
our findings and conclusions in accordance with our audit objective. We believe that the
evidence obtained provides that reasonable basis. The objective of this follow-up audit was to
determine whether the actions taken by USAID/Colombia in response to the recommendations
in Audit Report No. 1-514-09-007-P (Audit of USAID/Colombia’s Human Rights Program) were
effective. The audit team conducted fieldwork in Colombia from May 2 through May 16, 2011, in
Bogota, Bucaramanga, and Medellin. The scope of this audit comprised the actions taken to
address the nine recommendations made in the previous audit report.

Methodology
To answer the audit objective, we reviewed pertinent documents from the mission, MSD, and
the Government of Colombia showing actions taken in response to the recommendations in the
previous audit. Through interviews with officials from USAID/Colombia, the political section of
the U.S. Embassy Bogota, MSD, Colombia’s National Ombudsman, the Inspector General, and
the Inter-Institutional Committee for Early Warnings, we verified actions taken in response to the
recommendations. We judgmentally selected 3 of the 23 EWS offices and interviewed six
analysts as well as a manager. The three offices selected for testing were chosen because they
had the most analysts available in one office. Furthermore, we made a determination as to the
effectiveness of the actions taken to address each of the nine recommendations in the previous
audit report.




4
    Government Auditing Standards, July 2007 Revision (GAO-07-731G).



                                                                                                8
                                                                                       Appendix II



MANAGEMENT COMMENTS 


                                                     August 12, 2011
MEMORANDUM

TO:	           Regional Inspector General/San Salvador, Catherine Trujillo

FROM:	         USAID/Colombia Acting Mission Director, Nadereh Lee /s/

SUBJECT:	      Follow-up Audit of USAID/Colombia’s Human Rights Program (Report Number 1­
               514-11-00X-P)


This memorandum contains USAID/Colombia’s management comments on the subject audit
report transmitted on July 15, 2011. Per review of the subject audit report, the following is
USAID/Colombia’s management response and plan of action.

Recommendation 1: “We recommend that USAID/Colombia, in coordination with its
implementing partner and the Government of Colombia, ensures that the Early Warning
System establishes internal timelines for preparing and forwarding risk reports.”

Management response:
The Early Warning System (EWS) has yet to establish internal timelines for preparing and
forwarding risk reports; however, the process is in development. In order to help the EWS
create the necessary timelines, the USAID Human Rights Program financed two studies to
analyze and document the methodologies used by the EWS and to produce common definitions
and criteria. Using this input, the EWS is developing its internal methodologies and timelines.

After the methodologies and internal timelines are defined, it will be necessary to:

      Perform a final edit of the EWS procedural manuals.
      Publish the manuals.
      Have the National Ombudsman issue an internal resolution mandating the use of
       the manuals within the EWS.

According to the director of the EWS, these activities will be finished by the end of 2011. Upon
completion, the USAID Human Right Program will support a national workshop to train all EWS
analysts in the new procedures. It is important to note that the USAID Human Rights Program
will make additional efforts to support the completion of these three initiatives, but the
Government of Colombia remains responsible for the full implementation. If all goes as planned
the mission will close this recommendation by July 14, 2012.

USAID/Colombia is providing edits and non-substantive comments in the attached table and
thanks you for all your positive and constructive contributions during this process.


                                                                                                9
U.S. Agency for International Development 

       Office of Inspector General 

      1300 Pennsylvania Avenue, NW 

          Washington, DC 20523 

            Tel: 202-712-1150 

            Fax: 202-216-3047 

           www.usaid.gov/oig
